<html>
<title> - THE U.S. RESPONSE TO THE POLITICAL CRISIS IN SUDAN</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


           THE U.S. RESPONSE TO THE POLITICAL CRISIS IN SUDAN

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 25, 2019

                               __________

                           Serial No. 116-51

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                    or http://http://www.govinfo.gov                    
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-818PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                    
                    
                    
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
                   
BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                                                 
                   
                     Jason Steinbaum, Staff Director
               Brandon Shields, Republican Staff Director
                                 
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

                     KAREN BASS, California, Chair

SUSAN WILD, Pennsylvania             CHRISTOPHER SMITH, New Jersey, 
DEAN PHILLIPS, Minnesota                 Ranking Member
ILHAN OMAR, Minnesota                JIM SENSENBRENNER, Wisconsin
CHRISSY HOULAHAN, Pennsylvania       RON WRIGHT, Texas
                                     TIM BURCHETT, Tennessee

                    Janette Yarwood, Staff Director
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                           OPENING STATEMENT

Prepared statement for the record submitted from Chair Bass......     3

                               WITNESSES

Day, Ramsey, Senior Deputy Assistant Administrator, Bureau For 
  Africa, United States Agency for International Development.....    12
James, The Honorable Makila, Deputy Assistant Secretary for East 
  Africa and The Sudans, Bureau of African Affairs, United States 
  Department of State............................................    18

                                APPENDIX

Hearing Notice...................................................    38
Hearing Minutes..................................................    39
Hearing Attendance...............................................    40

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Representative Omar............................................    41

 
           THE U.S. RESPONSE TO THE POLITICAL CRISIS IN SUDAN

                         Tuesday, June 25, 2019

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The subcommittee met, pursuant to notice, at 2:48 p.m., in 
room 2172 Rayburn House Office Building, Hon. Karen Bass [chair 
of the subcommittee] presiding.
    Ms. Bass. This hearing for the Subcommittee on Africa, 
Global Health, Global Human Rights, and International 
Organizations will come to order. The subcommittee is meeting 
today to hear testimony on the U.S. response to the political 
crisis in Sudan.
    Let me just thank everyone here for your patience. I am 
sorry that we are starting so late. I know you are aware that 
votes were called, which means everything stops around here and 
we had to go vote. But I do not believe that we will be 
interrupted any further.
    Today, we are here to further explore the fluid situation 
in Sudan, the potential for a successful transition to a 
civilian-led government, and the policy options available to 
the United States. Sudan is at a critical junction and must 
decide if it wants to continue on the path of former leader 
Bashir or transition to a civilian-led rule as the transitional 
military council has promised.
    Initially, when the TMC seized power, they opened the 
political space and met with civilian-led groups. The organized 
protests were led by Sudanese professionals--Sudanese 
Professionals Association made up of doctors, lawyers, 
teachers, engineers, and others. In January 2019, the SPA 
joined with other civil society organizations and political 
coalitions to sign the Declaration of Freedom and Change. This 
commitment to a peaceful struggle targeted broader goals, 
including ending al-Bashir's rule, forming a transitional 
government, ending violence against protesters, and 
restrictions to freedom of speech and expression and 
accountability for the crimes against Sudanese citizens.
    But the situation has deteriorated. I look forward to 
hearing more from our witnesses regarding the U.S. response to 
the political crisis in Sudan and how the U.S. can address 
these blatant human rights violations and support efforts to 
get the country on the path toward democratic representative 
governance.
    So, without objection, all members have 5 days to submit 
statements, questions, extraneous materials for the record, 
subject to the length limitation in the rules.
    So I want to thank our distinguished witnesses who are here 
with us today for this hearing. I know that your staff have 
come to the Hill multiple times to keep us informed about 
events in the country, but the time has come to really 
understand how the U.S. is engaging the country during this 
political crisis.
    Let me say also that this is the first hearing. We 
anticipate having additional hearings. We did this very 
quickly, which is why we have one panel which is a government 
panel. Usually we have more than one panel and that we always 
include people who are from the country, but we were not able 
to do this on quick notice. So I do not want you to think that 
this is the last time we are going to have this discussion nor 
do I want you to think that we intentionally excluded people 
who are from Sudan.
    So there are many of us here in Congress who pay close 
attention to what is happening in Sudan. Considering all of the 
recent events in the country, the increased insecurity and the 
increased human rights violations, we think it is critical to 
get this update on events in the country, how the U.S. is 
responding and how the U.S. is adjusting its policy based on 
this new space the country is in.
    So I would like to know about the Assistant Secretary's 
trip to the country, the role of the new Special Envoy, how has 
the U.N. drawn down effective humanitarian operations, and 
about the drawdown of personnel at the U.S. embassy in 
Khartoum. Do you expect additional ordered departures? Are 
staff who remain in the country safe?
    I will tell you that several of us were planning on 
traveling to Sudan next week and our trip was canceled because 
we were told that it was not safe to be in the country. Members 
of Congress from both of sides of the aisle are engaged on 
Sudan and we want to make sure that we have a strong, unified 
message to help citizens of Sudan realize their goal of a 
civilian-led transition to power.
    I now recognize the ranking member for the purposes of 
making an opening statement.

    [The prepared statement of Ms. Bass follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Smith. Thank you so very much, Madam Chair, and I want 
to thank you for convening today's hearing on the ongoing 
political crisis in Sudan, a political crisis which has urgent 
and broad humanitarian and human rights implications.
    On several occasions, both you and I have visited Sudan, 
including trips to Darfur, and we do believe that the people of 
Sudan deserve better. We have also come to understand the 
country's importance as a critical link between North Africa, 
sub-Saharan Africa, and the Horn and that what happens in Sudan 
has implications for other countries including and in 
particular South Sudan, which you and I visited together in 
June 2017.
    Thus, today's topic extends beyond a single country, it 
also extends beyond a single crisis. Indeed, for most of my 
nearly 40 years in Congress, Sudan has been in political 
crisis. Today's pattern of repression followed by protests 
followed by coup followed by suppression is a pattern we saw 
play out throughout much of Sudan's modern history including in 
1964 and in 1985.
    Counting the removal of longtime strongman Bashir this past 
April by the military, there have been some five coups since 
independence in 1956. It is thus hard not to think of a 
political crisis when one hears the name ``Sudan.'' For those 
of a certain age, Hollywood has even kept alive the Sudanese 
political crises of the 19th century. We all remember Charlton 
Heston depicting General Gordon on the big screen in some five 
remakes of the adventure story, ``Four Feathers,'' depicting 
the revolt of the Mahdi. Such depictions though sensationalized 
and dramatized nonetheless have some value, for that late 19th 
century movement of the Mahdi reverberates today with much of 
the Sudan's modern history being intertwined with the question 
of how a modern State interacts with political Islam.
    Today's hearing also underscores the involvement of this 
subcommittee which since 2005 has held roughly a dozen 
hearings. I have chaired them. You have chaired them, Madam 
Chair. And my good friend, the late Donald Payne, did it as 
well.
    This subcommittee has also been engaged in the question of 
sanctions relief for a regime that has been a State sponsor of 
terrorism. Whatever the trajectory which began in the last 
administration and continued into this one toward lifting 
sanctions has been halted by events since last April 11th when 
Bashir was removed from office by Sudan's military.
    That kindled in me a hope, personally, for I had met Bashir 
in 2005 in Khartoum and I found him to be absolutely inflexible 
in his opposition to any reform. All he wanted to talk about 
was sanctions relief in our conversation which went on for well 
over an hour. I asked him if he ever visited--``When was the 
first time you went to Darfur, Mr. President?'' There was no 
answer to that. I was on my way there right after that meeting.
    For a brief period this spring, we had hope that his 
removal would lead to a transition to civilian-led democratic 
government which respected human rights and thus, ultimately, 
would lead to sanctions relief. But those hopes have been 
delayed, if not belayed, indefinitely. On June 3rd, 
demonstrators who had kept vigil in Khartoum were violently 
dispersed with some 120 killed.
    Thus, in the context for today's hearing we shall hear from 
the Administration witnesses as to what our policy response 
should be. Given the history of Sudan, what might we do 
differently this time to encourage a movement toward true 
civilian rule? While much of Sudan's history is intertwined 
with political Islam from the Mahdist movement to the Muslim 
Brotherhood, there are also those committed to democracy and 
respect for religious freedom including especially within the 
Muslim community.
    What can be done to encourage those individuals, parties, 
and counter trends? Further, what milestones must be met in the 
transition to democracy and sanctions relief? We know the 
conditions which, first, the Obama administration and then the 
Trump administration set as preconditions for any relief, and 
in that regard I am grateful that the Trump administration 
included respect for civil and political rights as important 
markers to be met and for Deputy Secretary John Sullivan 
forcefully raising the issue of respect for religious freedom 
in a speech he gave in Sudan in November 2017.
    What of holding Sudan to the terms it agreed to as part of 
the comprehensive peace agreement with South Sudan in 1905, 
including popular consultation with respect to South Kordofan, 
the Blue Nile States, and deciding the status of Abyei, terms 
which have never been fulfilled? Finally, how do we address the 
ongoing humanitarian crisis? It is estimated that the need for 
humanitarian aid has increased 40 percent since 2018, and the 
humanitarian crisis is linked to the political.
    While we work toward solving the political crisis, how do 
we meet the immediate humanitarian needs? No one should starve 
or have lack of medicine. I yield back.
    Ms. Bass. Thank you, Mr. Smith.
    I want to introduce our two panelists now. Makila James is 
a career member of the Senior Foreign Service and has served as 
Deputy Assistant Secretary for East Africa and the Sudan since 
September 17th, 2018. Prior to taking up these 
responsibilities, she was on the faculty of the National War 
College and served as the director of the International Student 
Management Office at the National Defense University. 
Ambassador James has also held a variety of positions in 
Washington and overseas, including as the U.S. Ambassador to 
the Kingdom of Swaziland from 2012 until 2015.
    Ramsey Day serves as Senior Deputy Assistant Administrator 
for the Africa Bureau. Prior to joining USAID in January 2018, 
Mr. Day was the Senior Director for the Center for Global 
Impact at the International Republican Institute where he led 
the Institute's project designs, strategic planning, and 
monitoring and evaluation efforts. He also worked in Amman, 
Jordan as the IRI country director from 2014 to 2017, leading 
programs in public opinion research, good governance, and 
political party building.
    With that, Mr. Day.

STATEMENT OF RAMSEY DAY, SENIOR DEPUTY ASSISTANT ADMINISTRATOR, 
   BUREAU FOR AFRICA, UNITED STATES AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Mr. Day. Good afternoon, Chair Bass and Ranking Member 
Smith and members of the subcommittee. Thank you for the 
opportunity to be here today alongside my friend Makila.
    USAID greatly appreciates the subcommittee's support for 
the people of Sudan and for drawing attention to this important 
issue. USAID remains deeply concerned over the brutal crackdown 
by Sudan's security forces on unarmed civilians who for months 
gathered peacefully in the streets of Khartoum and across 
Sudan, seeking to establish a representative and inclusive 
government after 30 years of oppression, division, and 
corruption under Omar al-Bashir.
    After decades of unwavering partnership between USAID and 
the people of Sudan, we are gravely concerned this nonviolent, 
well-organized, and massive effort by the Sudanese people to 
demand a democratic and representative government has been met 
with violence. United Nations human rights experts warn of 
Sudan sliding into a human rights abyss and have joined other 
voices calling for an independent investigation into violations 
against the peaceful protesters, which the Transitional 
Military Council, or TMC, has adamantly rejected.
    Darfur has still not recovered from the mass killing, mass 
displacement, and genocide that began in 2003, the aftermath of 
which USAID responds to with humanitarian assistance on a daily 
basis and nearly 1.8 million people displaced by conflict and 
security in Darfur, many of whom have been displaced for well 
over a decade.
    I remain deeply troubled that one of the key factors 
exacerbating the instability in Khartoum is the presence of the 
inactivity of the Rapid Support Forces, or RSF, which evolved 
from the very forces that already committed mass atrocities in 
Darfur. As a show of good faith that it can operate in the 
interest of the Sudanese people, the TMC must allow for an 
independent and credible investigation of the human rights 
violations committed in Khartoum and hold accountable those 
responsible for the violence.
    On June 3rd, the TMC unilaterally announced that elections 
would be held in 9 months. USAID agrees with our State 
Department colleagues that such a timeline is unacceptable and 
would virtually ensure that the military and security forces 
who overthrew Bashir will remain in power, continuing the 
blatant violations of human rights and silencing of the 
peaceful demands of the citizens.
    The upheaval in Khartoum is also intensifying the 
humanitarian crisis in Darfur, just as the United Nations-
African Union joint peacekeeping operation in Darfur, or 
UNAMID, is in the process of drawing down toward a planned exit 
a year from now. UNAMID continues to play an important role in 
the protection of civilians and a role that simply cannot be 
filled by the RSF. The international community assesses that 
more than eight million people are in need of humanitarian 
assistance in Sudan, including one million refugees most of 
whom are from South Sudan.
    The United States remains the largest donor of humanitarian 
assistance in Sudan. Over the last 2 years, the U.S. Government 
has provided nearly $340 million in humanitarian assistance, 
reaching more than 2.5 million people. Current programming 
focuses on emergency food distribution, improving health and 
nutrition, and increasing access to safe drinking water.
    The TMC's decision to cutoff the internet and telephone 
networks has significantly hampered humanitarian operations. 
USAID will continue to call on the TMC to ensure unfettered 
access for humanitarians to help the Sudanese people in need of 
lifesaving assistance. However, humanitarian access remains 
uneven and unpredictable. The reduced staff capacity of several 
Sudanese ministries and other government offices has in some 
cases slowed humanitarian access, but the operating environment 
varies greatly by location. The current restrictive and 
bureaucratic process for facilitating humanitarian operations 
must be improved to ensure timely delivery.
    USAID also provides approximately five million dollars in 
development assistance to the Sudanese people which supports 
conflict mitigation at the community level and bolsters civil 
society including women, youth, and persons with disabilities. 
While we certainly have concerns about a rapid move to 
elections, USAID stands ready to support civil society to 
engage in a credible electoral process.
    The people of Sudan have been united by a vibrant, 
inspirational, and massive public demonstration for democracy 
and civilian rule which has eluded the country since 1989. A 
transition to civilian rule with an empowered civil society 
inclusive of all Sudanese is essential to stopping the cycle of 
conflict and oppression and chart a new course for the people 
of Sudan on their journey to self-reliance.
    I appreciate the opportunity to be here and I look forward 
to your questions.
    [The prepared statement of Mr. Day follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Bass. Thank you very much.
    Ambassador James.

STATEMENT OF MAKILA JAMES, DEPUTY ASSISTANT SECRETARY FOR EAST 
AFRICA AND THE SUDANS, BUREAU OF AFRICAN AFFAIRS, UNITED STATES 
                      DEPARTMENT OF STATE

    Ms. James. Good afternoon, Chair Bass, Ranking Member 
Smith, members of the subcommittee. I am really pleased to be 
here today to share the space with my colleague to talk about 
the situation in Sudan. I want to appreciate that this 
subcommittee and Congress as a whole has been very supportive 
in all of our efforts. We are all working toward a more 
peaceful, prosperous, and democratic Sudan.
    Since the ouster of Omar al-Bashir on April 11th, we have 
been in close contact with your staff to provide updates on the 
very fluid situation. I want to convey our very sincere 
appreciation for the strong, bipartisan support for the 
statements surrounding the events on the ground. Our 
overarching policy goal in Sudan is to support the formation of 
a civilian-led transitional government that can begin to 
implement much needed reform and prepare the country for free 
and fair elections.
    The Sudanese people have made their demand very clear. They 
want civilian leadership. We seek to help the Sudanese people 
avoid the many risks such as continued military rule, a return 
to conflict among militias or security forces, and the re-
emergence of the National Congress Party and other political 
forces that seek to counter their aspirations. The 
reprehensible attacks by the security forces under Transitional 
Military Council control and led by the Rapid Support Forces 
beginning on June 3rd sought to thwart those aspirations. 
However, the people of Sudan have shown remarkable resilience 
and determination in the face of this brutal violence.
    We should seek to similarly be undaunted in supporting 
their goals of a peaceful transition to civilian-led 
transitional government that respects the human rights and 
fundamental freedoms. I personally visited Khartoum right after 
the Sudanese people unseated President Bashir, and I was moved, 
moved by the passion, the dedication, and the commitment of the 
people to bring change, and I saw the protesters in the street 
peacefully.
    On June 10th, the Department appointed Special Envoy for 
Sudan, Ambassador Donald Booth, to lead the Department's 
efforts to secure a peaceful political solution to the current 
crisis in Sudan. He and Assistant Secretary Tibor Nagy recently 
traveled to Khartoum and Addis, and Ambassador Booth is 
currently in Khartoum today.
    We have repeatedly and at the highest levels, both publicly 
and privately, called for the TMC to end immediately all 
attacks on civilians, obstruction of medical care, blocking of 
the internet, and undue restrictions on the media and civil 
society. We have urged TMC leadership to withdraw the RSF from 
Khartoum and turn over law enforcement to the police as a way 
of demonstrating that they are ready to negotiate in good 
faith.
    The TMC is ultimately responsible for all the attacks on 
civilians by security forces and we have pressed them to allow 
a credible and independent investigation and to hold those 
responsible for violence to account. To be clear, our previous 
engagement with the Government of Sudan known as the Phase II 
process has been suspended indefinitely. Our hope is to help 
the Sudanese people achieve a civilian-led transitional 
government that respects their rights and to then help that 
government, working with our international partners, to address 
the significant economic and political challenges it will 
inherit from the Bashir regime.
    We believe that an agreement between the Sudanese military 
authorities and the opposition umbrella group called the Forces 
for Freedom and Change, FFC, on the formation of a civilian-led 
transition is the best possible outcome. The FFC is broadly 
representative and committed to peaceful engagement. We have 
encouraged the parties to buildupon the agreements made to date 
and to develop a transitional government system that is 
civilian-led, includes checks and balances to promote 
consensus, and that will form a government within a reasonable 
amount of time agreed to by all the parties before holding 
elections.
    Succeeding in this process will require compromise and 
courage from Sudan's leaders. We and other partners can play a 
very supportive role. Sudan's military also has a role to play 
as a partner in a civilian-led government. They can choose to 
be a partner in the solution and agree with FFC and form a 
civilian-led government and work with them in a transitional 
government that ends conflicts, implements reforms, and leads 
to free and fair elections. This is the only pathway to a 
stable Sudan and a better relationship with the United States.
    Last, we are coordinating with Africans and other 
international partners and stakeholders to align our efforts in 
support of a peaceful solution and a civilian-led government 
that heeds the demands of the Sudanese people. We support the 
role of the African Union and the strong response of the 
African Union Peace and Security Council following the bloody 
June 3rd attacks on peaceful protesters.
    We have also welcomed the engagement of Ethiopian Prime 
Minister Abiy and the work of the Envoy he has appointed, as 
well as the Intergovernmental Authority on Development, IGAD, 
to mediate between the parties in conjunction with the African 
Union. Ambassador Booth and other U.S. officials are in regular 
contact with the mediators to support their efforts, encourage 
productive dialog leading to an agreement, and to back them 
with the full array of options at our disposal including 
measures that target those involved in human rights violations 
and abuses and who undermine the establishment of a peaceful 
transitional government.
    We are coordinating with the African Union, the U. N., the 
Troika (US, UK, and Norway), and other European partners and 
countries in the region, including important stakeholders such 
as Egypt, Saudi Arabia, the United Arab Emirates, and Qatar. 
Senior officials have been in engaged in a frank and frequent 
dialog with them to coordinate efforts to send a common demand 
to the TMC to end attacks on civilians and to agree to the 
formation of a civilian-led transitional government.
    [The prepared statement of Ms. James follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Bass. Thank you. Thank you very much for your 
testimony. And if there is more, I am sure as we engage in 
questions and answers we will be able to do that. So we are 
going to begin that now, and we will each take 5 minutes. We 
will do a round, and then we will come back through again if 
any of the members have more that they would like to say.
    Ambassador, you were talking about the UAE, Saudi Arabia, 
and Egypt, and I wanted to know if you could expand a little 
bit on your thoughts on what the role is that they are playing, 
because I know that it is not positive.
    Ms. James. The United States has been having active 
engagement with all the countries that have a stake in what is 
going on in Sudan, including the Gulf States and Egypt, on the 
crisis that is happening. We have had very frank conversations 
at the level of Under Secretary Hale, Ambassador Booth, myself, 
the Department's Near East Asian Affairs Bureau, and our 
embassies in the region.
    There was recently a meeting held just last weekend in 
Berlin. Countries that are interested in Sudan, we call 
ourselves the Friends of Sudan, and we gathered, including the 
countries from the Gulf States, to talk about how we could be 
supportive and how we could work together.
    Ms. Bass. Is it the Administration's view that these three 
countries are playing a positive role?
    Ms. James. Well, we do think they can bring something to 
the table because they have influence and leverage with some of 
the parties. Particularly, there is leverage over the 
Transitional Military Council, and so we are urging them to use 
that leverage and to use the financial assistance that they 
have pledged to the country to move the TMC toward accepting an 
agreement and to ending violence.
    So to that extent, we think that they are receptive to that 
message. They have given us positive indications that they want 
to be supportive. And so, yes, we think they could play a 
constructive role.
    Ms. Bass. They could play a positive role, but they have 
not up until now.
    Ms. James. Well, I would say that we have urged them to be 
mindful of how their funds can undermine the process.
    Ms. Bass. Right.
    Ms. James. And they have indicated to us that the money 
that they have pledged to date has been used just to stabilize 
the Sudanese pound, but going forward they want to work with 
the rest of the international community on how to continue 
disbursing those funds, so to that extent they can play a 
constructive role moving forward.
    Ms. Bass. OK. So what is the status of--you mentioned the 
effort by Prime Minister Abiy. And so, what is the status of 
the Ethiopian and AU mediation efforts? I know when the Prime 
Minister first went there, if I am not mistaken--or no, I am 
sorry. When leaders of the opposition went to Addis, when they 
returned home, they were arrested. And I do not know where they 
are now, but I wanted to know what you thought of the Prime 
Minister's role in general and what happened to the opposition 
forces. Are they still incarcerated?
    Ms. James. With respect to the general role that Prime 
Minister Abiy and his newly appointed Envoy Mahmoud Dardir are 
playing, we think it is a very constructive role. Actually, 
they are working very closely with the African Union. The 
African Union has basically supported Prime Minister Abiy's 
Envoy in taking the lead in mediation.
    So we see a coming together of the African Union and the 
Ethiopian efforts, including efforts with IGAD. It has been 
positive. It has been going in a direction where they have 
presented proposals to the parties and we understand that the 
FFC has accepted them; the TMC has not. But that they are 
talking to all parties and trying to get this agreement signed, 
we think that is a constructive thing. We think it brings 
value.
    I actually have to say I do not have the latest on the 
people who were arrested. We will have to get back to you on 
that one.
    Ms. Bass. Thank you. I would appreciate that. And then I 
wanted to know what support we are providing to the mediation 
efforts. You know, you certainly referenced Booth and the 
Assistant Secretary, but specifically what are we doing? And 
then what tools do we have to press the TMC to hand over power?
    Ms. James. Well, our very presence, the very fact that we 
have an Envoy there helps us play a coordinating role. The 
coordinating role I described with the Gulf States, as well as 
with other partners, many in the Troika, the U.S., U.K., 
Norway, our engagement there, we are able to play a role where 
we are coordinating positions. We are putting forward ideas on 
how to assist the country once a civilian government is 
established.
    So we think our role has been very complementary and 
supportive of the Envoy's role from the African Union and from 
ET/IGAD, so we think we are playing our part. With respect to 
actual tools we have, I think Assistant Secretary Nagy has 
spoken to this. We do have a wide array of tools. Some of them 
are to incentivize good behavior and we are also exploring what 
happens if things do not go well.
    I do not want to go through chapter and verse now because 
we are in early stages, but we are looking at all options. The 
most important thing right now is we have robust diplomacy. 
That is our first tool that we really want to put into full 
effect. With all the Envoys now, with the ongoing dialog that 
is happening, we think diplomacy is one of our biggest and 
strongest tool----
    Ms. Bass. Let me, before I run out of time, I wanted to 
know what actions that we have taken to press for an impartial, 
independent investigation to some of the killings that have 
taken place. And I do not mean to exclude you, Mr. Day, but 
Madam Ambassador, and then maybe in my last few seconds Mr. Day 
can respond.
    Ms. James. The killings were reprehensible and I think from 
the very first day we have issued statements from the State 
Department. We have also commended those statements coming from 
a number of other sources including our European colleagues, 
our European partners, and the Gulf States. So we have been all 
encouraging everyone to release statements and to put pressure 
on the TMC.
    And our frank dialog that we had in Berlin just this 
weekend, we underscored that everyone has to make it very clear 
to the TMC no more violence will be acceptable under any 
circumstances and that there will be a cost to pay. I did not 
want to get into the cost in great detail now, but we are 
looking at all options including sanctions down the line should 
there be any kind of repeat of violence.
    Ms. Bass. OK.
    Mr. Smith.
    Mr. Smith. Hopefully those sanctions include indictments? I 
mean Bashir being the monster that he was, still was very 
concerned about his ICC indictments, so hopefully that is being 
very seriously considered.
    If I could--this is Administrator Day, if you could, you 
talked about how the Rapid Support Forces, witnesses said that 
they were formerly Janjaweed. Could you elaborate on that? And 
you did say, and I am glad you were so emphatic that we are 
fully against the May 13th decree by the TMC demanding that 
UNAMID bases are turned over to the RSF. And I am wondering, 
you know, that is a 10,000-strong deployment unless it has been 
downgraded further. I am wondering what role they may or may 
not be asked to play in terms of peace. They are there, they 
are not far. You know, of course Khartoum is not Darfur, but if 
you could speak to that.
    And then the point you made in your opening about how 
credible reports that the RSF attacked protesters while they 
were sleeping, attacked medical staff and hospitals assisting 
the wounded, raped women and men, including healthcare workers, 
and then you go on from there. How safe is it now? Has that 
been chronicled? Do we know what are those people doing? 
Someone who has been attacked in such a horrific way, did they 
find any kind of refuge, particularly the wounded?
    And what about a humanitarian worker on the ground right 
now in Khartoum or in proximity to it, how safe are they? And 
that goes for the medical staff as well. You mentioned one 
American was killed. Are you at liberty to disclose who that 
was, if you would? Was that person a humanitarian worker, for 
example. And again, I would ask you how many of these RSF 
forces are there. I mean, you know, the Janjaweed was not all 
that big, but they are unbelievably lethal because of their 
monopoly on weapons and other things in space, if you could 
speak to that as well.
    And is there anything being considered at the United 
Nations in terms of a deployment of a force or re-deployment of 
existing forces in Sudan?
    Mr. Day. Thank you, Congressman. There are several 
components of that, that I will defer to the Ambassador on, but 
I will comment on a few of those. No. 1 is related, of course, 
to the humanitarian situation and the role that the RSF is 
potentially playing in that. You are absolutely right. Many of 
the leaders of the RSF are the same leaders that were leading 
the Janjaweed militia during the Darfur genocide started in 
2003.
    We are deeply concerned about that and how it will impact 
our ability to operate from a humanitarian perspective. The 
humanitarian situation is significant and it is serious. We 
have seen a significant increase in the humanitarian need over 
the last year or so, not just because of the political 
situation but also the economic. One million of these are 
refugees from South Sudan where USAID is reaching about 2.5 
million people. But the operating environment is incredibly 
fluid. Where we have access 1 day, we may not have access 
another day.
    So there are a lot of hydraulics that play. It is a very, 
very dangerous operating environment at the time. So one of the 
elements that UNAMID plays, you had mentioned UNAMID, is that 
it does provide some level of security in some of the areas in 
which we are operating, so it does play an important role. Any 
kind of transition from UNAMID bases to something that is 
controlled by the RSF is deeply concerning to us and absolutely 
unacceptable.
    On many of the other issues, I would defer to the 
Ambassador.
    Mr. Smith. You do not mean that they get involved with 
mitigating the violence, you mean that they would lose their 
bases.
    Mr. Day. They would not play a constructive role, 
absolutely not.
    Ms. James. The first thing that I would add is that the RSF 
is under the TMC and the TMC is ultimately responsible for all 
the violence that is happening in the country. So we have made 
it very clear that we expect the TMC to have the RSF removed 
from Khartoum. They are a force that is operating without 
control and they need to be removed from that area. We have 
also said there should be accountability and that there should 
be accountability for the June 3rd violence and that we expect 
an impartial and credible investigation. So we are holding the 
TMC for the violence of the RSF. They are not a separate entity 
unto themselves.
    The other thing you asked about with respect to an American 
who was killed, I am not aware of an American who was killed 
although I am aware of an American who was shot and who is in 
the hospital. And when Assistant Secretary Nagy and Envoy Don 
Booth were traveling, they visited him in the hospital. They 
personally engaged with him to assure him that these issues are 
of great concern to us.
    But I do not think anyone was killed, but severely injured 
and that is unacceptable as well.
    Mr. Smith. Was that person a humanitarian aid worker or----
    Ms. James. I do not believe so.
    Mr. Smith. Woman or man?
    Mr. Day. We could check on that.
    Mr. Smith. OK, thank you. Thank you, Chair.
    Ms. Bass. Mr. Wright.
    Mr. Wright. Thank you, Madam Chair. I thank both of you for 
being here.
    Mr. Day, you had mentioned the situation on the ground is 
dangerous, that operationally it is very fluid. Do we know, 
have we been able to do a--has anyone been able to do a needs 
assessment? Do we know exactly what kind of supplies are needed 
there?
    Mr. Day. Sure. Thank you, Congressman. We do believe the 
type of humanitarian assistance that we are providing is what 
is needed which has been food distribution, which is the 
primary issue that we are--and food security is incredibly 
important at this point. There are about 5.8 million people in 
Sudan that are in what we call IPC 3 or IPC 4 areas, which is 
either crisis or worse emergency. IPC 5 would be in a 
catastrophic situation.
    But--so there are significant needs, but it is really on 
the food security side, nutrition, and then as well as water 
and sanitation.
    Mr. Wright. To what extent is the TMC preventing things, 
food and medicine to that extent from getting where it needs to 
be?
    Mr. Day. Historically, there has been interference or at 
least bureaucratic impediments in terms of getting permanence 
to operate in certain areas. Since 2016, the humanitarian 
access has improved. However, I say that with some caution just 
because it is very spotty, it is very uneven, and it is very 
unpredictable. So we have not seen any kind of systematic 
interference in our humanitarian access, but in some cases we 
just have more access than we have in other places.
    Mr. Wright. OK. Well, would you go as far as to say that 
their interference, people are dying because of their 
interference, that food and medicine is not getting where it 
needs to be. Is it that dire?
    Mr. Day. The situation is dire and there are people who are 
dying because of the food insecurity in Sudan. That said, the 
humanitarian operations are functioning and we are in good 
coordination with other donors. So I do not know that I would 
go so far as to say that there has been systematic and direct 
interference by the TMC that has led us to widespread inability 
to get to where we need to go.
    Mr. Wright. But their cooperation leaves a lot to be 
desired, does it not?
    Mr. Day. Yes.
    Mr. Wright. Ambassador James, you have talked a bit about 
some other African nations and their involvement and I did not 
hear anything about Russia and China. And we know that they are 
meddling in Africa, Chinese in particular, all over Africa. 
Have you heard--do you have any knowledge that they are getting 
involved in Sudan?
    Ms. James. I do not have anything specific to add on China 
in particular. We have certainly monitored Russian actions 
because the Russians were certainly involved with the Sudanese 
in some other African conflicts and so we are keeping a close 
eye, but I have not anything new to report to you today.
    Mr. Wright. OK, great.
    Madam Chair, I would like to give the remainder of my time 
to the ranking member, if he needs it.
    Ms. Bass. I am. I am.
    Mr. Burchett.
    Mr. Burchett. Thank you, Chair and Ranking Member.
    I was going through my questions here and everybody seems 
to be sort of reading off the same sheet now, but I appreciate 
that. There have been reports that there are tensions between 
the Sudanese military and the Rapid Support Force as the RSF. 
Should fighting break out between the security forces, what 
would that conflict look like? And both of you all can take a 
shot at it.
    Ms. James. Well, Congressman, I started by noting that we 
consider the RSF an entity that the TMC must be accountable for 
and must control. We understand that there are some tensions. 
We have certainly seen it play out with respect to what 
happened on June 3rd. I think it is very clear that the RSF was 
at the fore of that. The RSF initiated that action. And so our 
pressing the TMC today is to say you must hold these people 
accountable. You must rein them in. You must stop this 
continued violence.
    We are hoping that our pressing them collectively, not just 
the United States but all of the international partners 
pressing the TMC that there is going to be accountability and 
there is going to be a cost if they do not rein them in that 
that will generate enough motivation for them to really move 
seriously. We have to watch it. It is a very delicate 
situation. It is very fluid. Nobody wants to see more violence 
happening, so we have to kind of take this in very carefully 
measured steps.
    But we have been making the point very clear to the TMC, 
you are responsible for what happens with the RSF. We have not 
allowed them to separate out and say they do not have control. 
They have to be accountable at the end of the day. That is our 
consistent and collective message.
    Mr. Day. And from USAID's perspective, we are in constant 
scenario planning mode and in the event that there is a further 
deterioration of the security situation we would be able to 
respond as necessary.
    Mr. Burchett. OK, thank you.
    Ms. Bass. Are you finished?
    Mr. Burchett. Yes, ma'am. Yield the rest of my time. I 
apologize.
    Ms. Bass. OK. That is OK. Thank you.
    A few more questions. I wanted to ask again about Ethiopia 
and its role. And if there is an agreement based on the 
Ethiopian proposal, how could the U.S. and other partners 
ensure that key reforms are implemented to support a democratic 
transition? And then how will the U.S. respond if the TMC forms 
a transitional government without the opposition?
    How about you, Mr. Day.
    Mr. Day. Well, again I will defer to the Ambassador on some 
of the political dynamics, but I will say that in the event 
that there is a civilian-led government that is formed and it 
is a government that we would want to work with, we are 
prepared and we are in, as I mentioned, in constant scenario 
planning. So in the event that there is a civilian-led 
government that we would want to work with, we are prepared to 
adjust our assistance posture toward that government. So we are 
ready to go.
    Ms. Bass. Well, I was describing if they formed a 
government without the opposition.
    Mr. Day. I am sorry, without the opposition.
    Ms. Bass. If the military, right.
    Mr. Day. So we will work with our----
    Ms. Bass. What will we do? What will our response be?
    Mr. Day. So we will certainly work with our colleagues at 
the State Department to make a political analysis as to whether 
or not this is a government in which we can work. But in the 
event that we can work, well, then we are ready to go.
    Ms. Bass. I think that was a--referring that to you, 
Ambassador.
    Ms. James. Chair, I would like to just be very clear and 
unequivocal about this. We have conveyed in very strong terms 
that a unilateral government formed by the TMC would not be 
credible, would be unacceptable, and we would have a very 
difficult time engaging with such a government.
    Ms. Bass. What do you think the UAE and Saudi Arabia and 
Egypt would do?
    Ms. James. Well, we have had frank discussions as I said, 
this last week as well as the previous contacts I have 
described, and they have said to us repeatedly, they too want 
to see a civilian-led government that is in their interest 
because they are fundamentally concerned about stability. 
Anything short of a civilian-led transitional government that 
does not have the consensus and the buy-in from the people will 
not provide the stability that they care about.
    So we believe them. We take them at their word that they 
want to see that, that they are sending those similar kinds of 
messages, and we urge them to continue to do that publicly, 
privately, and to use their leverage.
    Ms. Bass. So are we doing anything to return internet 
access? I do not believe the internet is back, is it?
    Ms. James. My understanding is that it is not back yet. We 
are very concerned about that. Of course, it affects not only 
messaging, but it also affects humanitarian assistance 
delivery, it affects a number of things.
    Ms. Bass. Right.
    Ms. James. We are very concerned about that. We have, 
again, been making that one of our clear messages to the TMC, 
``You have to restore the internet.''
    Ms. Bass. So what are we doing to support, then, the human 
rights defenders, journalists, and civil society during this 
period? And when you say to them that they have to restore the 
internet, what is their response? Because they have not done 
it.
    Ms. James. Well, they have not done it. I could not tell 
you chapter and verse as to what they are doing behind the 
scenes, we have not seen it. But they know that it is part of 
our broader messaging. If you do not allow the people to 
demonstrate peacefully, if you do not allow not just the 
internet, but media freedom, then all of this undermines 
credibility in their efforts to get a civilian government.
    We have been making the linkage that you cannot have a good 
faith process if you do not allow the people to speak and to be 
seen and to be able to demonstrate peacefully. So we have been 
simply reiterating this as part of our broader messaging to 
them that people have a right to peacefully protest.
    Ms. Bass. Do you get a sense that they take us seriously? I 
mean we do not have an ambassador, right?
    Ms. James. We have a charge and that is because they have a 
charge here. But our Charge, Steven Koutsis, has been very 
engaged. He has regular meetings across the board with FFC and 
TMC and other stakeholders, so we think that we are getting our 
message across.
    We have actually seen some moderation. When I arrived in 
Khartoum at first, early April, one of the first demands was 
that the negotiators that the TMC put forward were not 
credible. They were considered tainted, and we pressed that 
they had to remove them. The TMC did remove those people. And 
so we think that they do begin to hear us, but it has to be 
consistent and it has to be a collective message from the 
broader international community.
    Ms. Bass. So it just seems to me, I mean, you know, I was 
there a few months ago before this happened and they were so 
excited and interested in moving U.S. relations forward, and 
they were all ears. And to me it seems like that has closed. I 
do not get the impression that they are taking us seriously. If 
we have said over and over again, they need to restore internet 
access and they have not, I do not know if we have any ability 
technology-wise to supersede that.
    Ms. James. I could not answer on the technical issue of 
what we can do on the internet specifically, other than make it 
very clear that that is part of our broader demand for giving 
the public access to media and the ability to be heard and to 
be seen. In terms of our leverage, one of the most important 
bits of leverage we have, and I think the committee is quite 
aware, is that we were in discussions with the government prior 
to the fall of Bashir. We were in discussions on what we called 
Phase II. That process has been suspended indefinitely.
    Ms. Bass. Right.
    Ms. James. The government is very much interested in 
resuming that because they see it as the ultimate path to 
getting to economic assistance.
    Ms. Bass. Right.
    Ms. James. So that leverage is something that we are----
    Ms. Bass. They want the State sponsored terrorism removed.
    Ms. James. We are continuing to press that there will not 
even be a reassessment of starting that dialog unless the 
civilian government is in place. So we think we have their 
attention because that is leverage that they really want us to 
exert in their behalf.
    Ms. Bass. Thank you.
    Mr. Smith. Thank you much, Madam Chair.
    Let me ask you if I could, the makeup of the RSF, you know, 
the information I have looked at suggests there may be as many 
as 50,000 troops. A man who goes by the nickname of Hemeti who 
is well-known for his atrocities, and I am wondering what we 
know about him. And I am wondering if you could tell us how the 
Saudis and the Gulf States provide money. What is the flow of 
money, munitions, other materiel, do they have any influence to 
try to end this reign of terror since they seem to be the purse 
strings?
    But again, Lieutenant General Mohamed Hamdan Dagalo, I mean 
it could be--who goes by the nickname of Hemeti. But 50,000 
troops, is that accurate, because that is a huge force, and are 
they at loggerheads with the military or are they in some way 
in cahoots with the military, if you could speak to that as 
well.
    Who in the RSF has been--who are they targeting? I mean 
when they went into the hospitals, when they raped men and 
women, when they killed people, what was their target? They 
must have had--it could not have been indiscriminate. They must 
have had people. Is there any sectarian violence involved here? 
Are there Muslims, for example, or Catholics, or others? Is 
there any evidence of that? I think that is important.
    And again, the Janjaweed leadership, how many of these 
people are newly recruited into this new force? You know, the 
Janjaweed was notorious for its brutality. They never went away 
and, apparently, they have reconstituted themselves under a new 
banner. If you could speak to that as well.
    Ms. James. Let me start with Hemeti first. Hemeti is the 
deputy of the TMC and in that position he has a role of 
influence within the TMC structure. And so, we engage with him, 
not to confer legitimacy, not because we believe that he is 
somebody who is credible and a good leader, but because we have 
to engage with him to deliver our tough messages. So we do meet 
with him quite regularly as part of our engagement strategy to 
be sure that they are getting our messages loud and clear.
    With respect to the RSF, I could not answer your question 
yet on the numbers, but we all know that the RSF are a remnant 
of the--they are a rebranded version of what was the Janjaweed. 
These are not people who we consider to be credible security 
forces, but we do feel like because they have been a part of 
the security forces, the TMC has to rein them in and has to 
direct their behavior and has to be accountable for their 
behavior.
    But the RSF is quite a concern for us, a very big concern. 
These are not disciplined forces. These are not trained 
security. And there is a great concern that the division 
between them and the regular army, the Sudanese Armed Forces, 
is very worrisome. Nobody wants to see a civil war break out.
    And so we are trying to convey to General Burhan who is the 
head of the TMC that he must be accountable for what is 
happening with Hemeti and the RSF. We cannot say that enough. 
And it is not just the United States. This is a point that all 
the countries involved in Sudan including the members who were 
at the meeting on the weekend, the Gulf States, Egypt, 
Ethiopia, the AU, we have all been sending a similar message. 
The RSF must be reined in.
    They have the potential to destabilize what could be a 
successful transitional process because they, of course, are 
worried about their future, so we have been repeating that 
message over and over to Burhan. He has to be accountable for 
what is happening with Hemeti and the RSF.
    Mr. Smith. Is there any kind of graph that would show the 
line of authority with Hemeti and others, and how many of these 
commanders are seasoned janjaweed who have committed the most 
gross atrocities on the face of the earth and now they are 
unleashed again to kill fellow Sudanese, do we have that? I 
mean how many--what is the core group that really makes up this 
terrible organization?
    Ms. James. I do not have a definitive number for you today. 
We can do some checking on that. But I think it is accurate to 
say that they are widely dispersed throughout Khartoum. They 
are in Omdurman. They are in other large cities, so they are in 
many different places. And we have urged that they be removed 
from the streets of Khartoum. They have no business in 
Khartoum. There are no barracks for them in Khartoum. And if 
they are going to be removed off the streets they have to be 
totally decommissioned there. There is no place for them to go 
back into barracks in Khartoum.
    Mr. Smith. Now you have testified that AU has suspended 
their membership. Does that have any real impact? I mean Bashir 
actually ran the organization during one cycle. And I am just 
wondering if--what else is on the table that could really 
impact them?
    Ms. James. The point I was trying to underscore earlier 
about the robust diplomacy that is happening now, we are at a 
new moment right now. Between the Envoy that the AU has 
assigned, the Envoy from IGAD and from Ethiopia, and our own 
Envoy, as well as the Envoy from the United Nations and others, 
we see that there is now a consensus coming together. There is 
a core of diplomacy that is really beginning to have an impact.
    We are not only doing it in Khartoum, we are doing it in 
various other capitals as well as in the Gulf States. 
Ambassador Booth will be traveling not only from Addis to 
Khartoum, he will be going to the Gulf States this week coming. 
And so, we are going to continue sending the message that we 
need to be coordinated and using all of our leverage. No one 
country alone can move the situation. It is going to take our 
collective activity, which is why we are spending a lot of time 
coordinating with our partners in any country that has 
influence and a constructive role to be played.
    So that is what has been happening. That is the real 
leverage, using the diplomacy first because things are 
beginning to make a difference. You have the FFC open to an 
idea that has been put forward from the African Union and the 
IGAD members and that is something that we want to build on. We 
want to lock in what they have already agreed to and keep 
building on that and pressing the TMC to come to the table.
    It is not going to be an overnight process, but we have to 
keep the pressure up from all the different bits of leverage 
that we have. And many different members of the international 
community have different degrees of leverage. We are trying to 
bring it all together.
    Ms. Bass. Thank you.
    Mr. Smith. Thank you.
    Ms. Bass. Representative Omar.
    Ms. Omar. Ambassador James, I wanted to talk to you about 
the role of foreign influence in the events of June 3rd, 
particularly wanted to talk to you about Saudi Arabia, Egypt, 
and the United Arabs. I know that the Administration sees the 
importance of engaging the Gulf States since David Hale called 
both the Saudis and the Emirates after the attacks.
    What do you think are the interests of Saudi Arabia, the 
Emirates, and Egypt's objectives and interests in Sudan?
    Ms. James. Well, the first thing I would say is that after 
the June 3rd violence, the UAE and Saudi Government both issued 
statements, as well as Egypt and others, strongly condemning 
the violence. They took that action immediately unprompted, and 
I take that to mean that they were shocked and appalled by the 
violence as we were. So I would give them some degree of credit 
in recognizing that that was a horrific experience. It 
undermined the process that was going along in a constructive 
way.
    Ms. Omar. What are----
    Ms. James. With respect to their interests, I would say 
that certainly they have a lot of--a long-term economic 
interest, but they also have an interest in fundamental 
stability. Any instability in Sudan is going to affect the 
whole region. They have raised that with us on several 
occasions. We take that to be a very serious concern. 
Instability in the region is something that is going to affect 
all the neighbors and they have a stake in making sure that 
that instability does not spill over.
    Ms. Omar. And, Ambassador, do you think they have an 
interest in democratization of Sudan, and do you know if 
Secretary Pompeo discussed Sudan with MBS in his meeting 
yesterday?
    Ms. James. I do not have a readout on the Secretary's 
conversations, so I could not address that. But I would say 
they have a--the Gulf States have the same interests we have in 
terms of stability and the best way to get that stability is to 
have the civilian-led government. They have said that 
repeatedly. They support that. They have made it very clear 
that they do not support the TMC. They are not there for the 
TMC, but they engage with the TMC the way we engage to deliver 
tough messages.
    I take them at their word that instability cannot be 
addressed if you do not have a government that the people 
fundamentally will accept. That is why the civilian-led 
government has been all of our mantra. That is all the people 
are demanding. That is what the people want. We believe they 
understand that is the root to stability.
    Ms. Omar. And we know that the Saudis and the Emirates have 
had a history of crushing democratic uprising in the region, 
and so I am wondering--that is contrary to what our interests 
are what we see as a stability being driven by in the Middle 
East. How is Ambassador Booth going to bring them around to see 
things from our point of view?
    Ms. James. Well, I start with the fact that I do not think 
we are pushing on such a closed door to begin with because in 
the meetings I held just this weekend with senior officials, 
the basic message was that we are all in agreement the 
civilian-led transitional government is imperative. It is 
imperative for the stability, but it is also the key to 
unlocking future economic assistance. That is what the country 
fundamentally needs. The instability in Sudan was driven by the 
economic crisis. They want to see the economic crisis 
addressed. We cannot address it until the State sponsored 
terrorism issue is addressed, so stability is key for all of 
us.
    I think the Gulf States have that same interest. We are all 
moving in the direction of what will it take to get us there. 
That means we have to get a mediated process which everybody 
will agree to that will lead to a civilian government. I think 
the Emirates, the Saudis, are in the same position we are of 
wanting to see that happen sooner than later. It is the only 
guarantee to stave off the instability.
    Ms. Omar. Yes. And I know that the people of Sudan have 
fought really hard to make sure that they can get rid of a 
dictator and I hope we do everything to make sure that they do 
not get a dictator for another 30 years.
    As you have mentioned that there might be possible 
sanctions down the road, to clarify do you mean the Global 
Magnitsky sanctions on Hemeti for his role on the June 3rd, or 
something else?
    Ms. James. Well, respectfully, I would like to say that we 
have not really finished that review process. We are looking at 
the options, but the options would include a range of things. 
As I said, there are some incentives, but there are also some 
sanctions, everything from visa sanctions to economic 
sanctions. I think I would leave it in that broad category for 
now as we are still assessing what are the best tools. We want 
to use the right tool and we really want to target the right 
people. So visa sanctions are certainly on the table as are 
economic sanctions.
    Ms. Omar. We often see different ways that we engage and 
the ways that we use our toolboxes. There are a lot of people 
who are talking to me about the way that we have engaged 
aggressively in the situation in Venezuela and how we are not 
aggressively in the case of Sudan. And some people would say 
this is a country of brown people who are Muslim, you know, we 
might not be interested in engaging aggressively because our 
allies do not want us to. And I hope that we are trying to find 
a balance and trying to be consistent with our values as we 
engage diplomatically in this particular issue.
    Thank you and I yield back.
    Ms. Bass. Mr. Phillips.
    Mr. Phillips. Thank you, Madam Chair. And, of course, 
today's conversation and hearing is not just about the future 
of Sudan and the Sudanese people, but also Ethiopia which, of 
course, is host to hundreds of thousands of refugees. And even 
an issue that touches my district in the suburbs of 
Minneapolis, Minnesota, where one of the first questions asked 
in my recent town hall just last weekend was from a Sudanese 
immigrant who asked what we are doing to help the transition to 
an accountable form of government in his former country.
    So to that end, I cannot help but reflect on the fact that 
we do not have an ambassador representing our country right 
now. Personnel at our embassy has been drawn down and the U.N. 
is also drawing down personnel. And so, my first question to 
both of you is, under those circumstances are we positioned to 
provide the assistance and support necessary and how do those 
three things affect our ability to do so?
    Ambassador James.
    Ms. James. Yes, sir. With respect to the ordered departure, 
our first priority always, at all of our embassies overseas, is 
the safety of our own people and those who work for us. Drawing 
down the embassy was a prudent measure to take in the early 
days partly because air travel was inconsistent, and we would 
have no way to evacuate people. So we took an action based on 
the safety of our own people to draw down to just the essential 
core staff.
    The essential core staff though is working around the clock 
and we are now trying to support them as hard as we can back in 
Washington. Ambassador Booth's appointment is to help with some 
of the regional diplomacy. So we do think that we have a number 
of tools, the Envoy, the embassy team, and then the robust 
group that we have back here in Washington, so we do think our 
work is still going forward.
    Yes, we would like to be at full staffing, but the most 
important thing is the safety of the people who are there. We 
think we are at a reasonable number for the risk and for the 
work that we have to get done. So that is with respect to the 
ordered departure.
    Mr. Phillips. Mr. Day.
    Mr. Day. I would only add that I think we are well 
positioned in the event that there is a real political 
transition in Sudan. We have been working in Sudan for nearly 
three decades. We are the largest humanitarian donor. Our 
development assistance is quite limited, but at the same time 
we do have a pretty significant network of civil society 
organizations that we have supported over the last several 
decades.
    We have made available some money through our elections and 
political processes fund and we also are supporting human 
rights monitoring. So at this point we feel like our assistance 
is probably appropriate for what the environment is, would 
allow, again separating humanitarian assistance and development 
assistance. But in the event that there is a political 
transition, we stand at the ready to adjust our assistance 
posture.
    Mr. Phillips. OK. I appreciate that. My next question is 
about stolen assets and money laundering. Do you believe those 
issues are issues in Sudan?
    Ms. James. I would have to say they absolutely are issues. 
We have not personally engaged on those deeply since April 
11th, but we know that the FFC has been looking at the issue 
and we have urged them to be transparent in whatever work that 
they are doing around that issue.
    But it is certainly something that a civilian-led 
government could take on. I think we are not going to get a lot 
of traction on that right now, but if we can get to a civilian-
led government I think it is something that we would urge them 
to put on their agenda.
    Mr. Phillips. As you know, the Treasury Department issues 
anti-money laundering advisories on occasion. We have done so 
relative to Venezuela and Ukraine. Would you argue that we 
should be doing so with Sudan so that we can identify and track 
some of those assets?
    Ms. James. To be quite honest, the priority right now is to 
really get the political process moving forward, to get the 
civilian-led government. That is the first thing. When that 
happens and we have a responsible government in place, then we 
can do a lot of other things along the lines you are 
describing. But without a responsible government, I think it is 
just going to be so much more difficult, if not impossible. So 
our priority right now is really to make this diplomacy robust 
and to get the civilian-led government in place.
    Mr. Phillips. OK.
    Mr. Day, any comments on laundering?
    OK. With that I yield my time.
    Ms. Bass. Mr. Smith.
    Mr. Smith. Thank you, Madam Chair.
    Let me just ask a couple final questions. On December 28th, 
the New York Times in an article on the front lines of the 
Saudi War in Yemen, child soldiers from Darfur, the point was 
made that on any given time for nearly 4 years there was some 
14,000 Sudanese militia mostly from Darfur who really comprise 
the RSF, so child soldiers are deployed. They take part in that 
battle, then some, I guess, maybe many are returned. Is that 
what we are talking about in terms of the composition of those 
50,000 RSF forces? Are we talking about child soldiers who are 
growing older of course, but more battle-hardened, who have now 
turned their violence against Sudanese people?
    And again, if I could ask, do we have any sense as to how 
much money from the Gulf States is flowing to this transitional 
government and will the Saudis and others do more to just put a 
tourniquet on the money and their diplomatic support for this 
terrible bloodletting?
    And again--well, third and finally, does USAID have enough 
resources? I mean we are talking millions of people again. Is 
there a need for an urgent supplemental or is money being 
diverted from some other account to ensure that food, clothing, 
medicine, and shelter is provided for the victims?
    Ms. James. With respect to the child soldier issue, I would 
note that Sudan has recently been relisted under the Child 
Soldier Protection Act which has consequences with it. It has 
sanctions attached to it. But, of course, as they are already 
under SST sanctions it does not trigger any new financial 
issues, but it is something that we will take note of and a 
civilian government will have to address that so they are 
relisted for the reasons you described.
    I would say that some of those comprise, some of the RSF 
forces, I could not give you a breakdown, a real number, but we 
know that there have been child soldiers deployed to Yemen and 
that we have been concerned about that and we have raised 
that----
    Mr. Smith. Do we have any idea of what their cycling is? I 
mean we all worry here, even the United States, the U.K., 
others, that when people were deployed, went to fight with 
ISIS, when they came back posed a very real threat to the U.S. 
or name the country. Are these soldiers upon their return now 
obviously better trained in really barbaric behavior? Are they 
then--I mean how many are we talking about and are they 
disciplined? I mean who are they?
    Ms. James. I actually do not have a firm answer for what 
happens to the returnees. We could come back to you with more 
information.
    Mr. Smith. Could you provide that for the record?
    Ms. James. But I would also like to answer your question 
about the money from the Gulf States.
    Mr. Smith. Yes.
    Ms. James. What we have been told repeatedly, we have had 
several interventions on this issue, the Saudis and the UAE 
Government pledged a total of three billion dollars over a 2-
year timeframe. They have indicated to us that they have each 
deposited 250 million into the Central Bank of Sudan and that 
that money is there to stabilize the pound.
    And it was not given to the TMC and it is not against the 
people of Sudan, but it was to avoid a crisis, a fire as they 
described it. We have made the strong case to them that any 
additional disbursements of those funds should be done in 
coordination with the international community, one to make it 
more effective and sustainable and to use it to help a 
civilian-led government, which will need that assistance over 
time.
    So they seem to be responsive to those entreaties and we 
hope that that is how they will disburse the remainder of that 
three billion.
    Mr. Day. Ranking Member Smith, I think on the issue of do 
we have enough resources, given the increasing need as well as 
the access issues the humanitarian operations are fully 
functional. And so areas in which we can gain access, we have 
the resources that we need to address many of those issues. As 
the situation evolves, we may have to reassess as we go forward 
because it was only a year, year and a half ago that we were at 
about 4.5 million in need of humanitarian assistance and now we 
are at 8 million. So this is an extremely fluid situation, so 
we will continue to watch this.
    We are also looking at other ways in which we may be able 
to support many of the people of South Sudan. We are looking at 
Office of Transition Initiatives programming. We are looking at 
ways in which we can continue to monitor the human rights 
issues. So there is a wide range of tools that we are using, 
but on the humanitarian assistance side we are deploying the 
resources that we have available to us, but many of the 
restrictions are going to be more on the access side than they 
are of are the resources there. We can move resources from one 
place to another.
    Mr. Smith. And before I run out of time, is there any 
serious consideration at the U.N. of redeploying or in some way 
constituting a force--I know it takes a long time to do all of 
that but, you know, my sense is that--I do not have a great 
deal of optimism that peace is going to break out. So one of 
the contingencies should be, will there be a U.N. force ready 
for deployment?
    Ms. James. To my knowledge, the U.N. Security Council has 
not taken this issue up yet. But the U.N. does have an Envoy, a 
very capable Envoy Nick Haysom who has been fully engaged in 
all the conversations with the other Envoys, with the TMC, and 
with the FFC. He has been in Khartoum quite a bit. He has 
engaged with us. We think the U.N. is clearly poised to take 
action, but it has not come to the Security Council to my 
knowledge.
    If I could add one other point that I did not mention 
earlier, June 30th is close approaching. We are very concerned 
about the potential violence for June 30th. We have also been 
conveying very strong messages to the TMC that they must allow 
peaceful protests. That if there is any repeat of the violence 
that we saw on June 3rd that there will be consequences and 
that the people have a right to protest because we are 
anticipating that there will be major activities on the date of 
June 30th.
    Mr. Smith. And you think Hemeti gets that?
    Ms. James. Well, we have been conveying that across the 
board. Certainly we have been conveying it to Burhan and to 
others. We think that message is being repeatedly delivered by 
other partners as well. It is not just our message, it is the 
collective international community's message.
    Mr. Smith. Thank you so much. Thank you for your work under 
such difficult circumstances. Thank you.
    Ms. Bass. Sure, my pleasure.
    I just have a couple of final questions. I wanted to know 
if the U.S. is encouraging the TMC to turn al-Bashir over to 
the ICC.
    Ms. James. That has not been a topic of recent 
conversation. As you have seen probably in the media, he has 
had a hearing at the court in Khartoum.
    Ms. Bass. Yes.
    Ms. James. And I think that is where he stands right now. 
He is incarcerated in Khartoum, but there has not been 
engagement on the ICC issue.
    Ms. Bass. I wanted to know if you know of where the speaker 
of the Parliament is, the speaker that was in place last year. 
I do not know if there is a new speaker. And other 
parliamentary leaders before Bashir's removal, are they still 
in place or is Parliament not functioning at all?
    Ms. James. My sense is that Parliament is not functioning 
and there have certainly been a lot of people who have been 
removed from office. I could not say the status of the speaker, 
per se. I really do not know that and I will do some checking. 
But another----
    Ms. Bass. Could you find out for me?
    Ms. James. Yes.
    Ms. Bass. I would like to know where he is.
    Ms. James. Thank you.
    Mr. Day. And, Madam Chair, on that front, I would just add 
that on the public administration side, because of course USAID 
worked closely with the Humanitarian Aid Commission, many of 
those institutions have in many ways been either dismantled or 
completely sidelined. In some cases, the National Intelligence 
and Security Services that have actually been--they were 
interfering in our ability to work with the HAC to get the 
permits that we needed.
    In an odd chain of events, the inability or the distraction 
of the NISS has actually enabled some of that permitting 
process to actually improve. So it is still complicated in 
terms of the humanitarian access in certain areas, but in many 
cases our interactions with the Government of Sudan has been 
almost nonexistent.
    Ms. Bass. Thank you.
    The internet blackout, I just want to say in closing, the 
internet blackout, we know, is affecting most of the country's 
citizens and has now been turned off for what I believe is 21 
days. Internet access, we believe, must be reinstated, and I 
urge those behind this to unblock internet access immediately. 
Governments must understand that prohibiting access does not 
mean that citizens will stop exercising their civil rights. I 
urge the government also to stop the censoring of print 
newspapers and stop detaining and harassing journalists, 
activists, and any citizen exercising their right to free 
speech and protest peacefully.
    Members of Congress from both sides of the aisle are very 
engaged in Sudan and plan to continue to do that and we want to 
make sure that we have a strong, unified message to help the 
citizens of Sudan realize their goal of a civilian-led 
transition to power. As I mentioned when we started, this is a 
first hearing, this is not our last. I would appreciate it if 
you would pass the word to Ambassador Booth and Nagy that we 
would like to have them come and speak to us and we would like 
to do that very soon.
    When we have another hearing on Sudan, we will make sure 
that we have more than one panel and there will be Sudanese who 
are represented in the future. I apologize we were not able to 
do that this time, but assure you that this is not the last 
time that you will hear from us on this issue. Members of 
Congress, as I said, are very, very concerned about this and do 
not plan to let up.
    With that, this hearing is adjourned.
    [Whereupon, at 3:57 p.m., the subcommittee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
